TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Annual Assessment of the
                   Business Systems Modernization Program



                                         August 24, 2007

                              Reference Number: 2007-20-121




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 August 24, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Annual Assessment of the Business Systems
                               Modernization Program (Audit # 200720003)

 This report presents the results of our annual assessment of the Business Systems Modernization
 (Modernization) program. The overall objective of this review was to assess the progress of the
 Internal Revenue Service’s (IRS) Modernization program for Fiscal Year 2007, as required by
 the IRS Restructuring and Reform Act of 1998.1

 Impact on the Taxpayer
 The Modernization program, which began in 1999, is a complex effort to modernize the IRS’
 technology and related business processes. According to the IRS, this effort will involve
 integrating thousands of hardware and software components. All of this must be done while
 replacing outdated technology and maintaining the current tax system. In Calendar Year 2006,
 the IRS continued with its delivery of Modernization project releases that provide significant
 benefits to taxpayers. However, this report, similar to our annual assessments of the
 Modernization program since Fiscal Year 2002, discusses four specific challenges the IRS faces
 in delivering a successful modernization effort. We continue to believe the eventual success of
 the modernization effort in delivering the level of service taxpayers expect will depend on how
 well the IRS addresses these challenges.




 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                            Annual Assessment of the
                                     Business Systems Modernization Program




Synopsis
The Modernization program is in its ninth year and has received approximately $2.3 billion for
contractor services. Additionally, the IRS had spent $220 million through Fiscal Year 2006 and
plans to spend an additional $45 million in Fiscal Year 2007 to manage the Modernization
program.
According to the IRS’ original plan, the Modernization program would be near the halfway point
by Calendar Year 2007. However, due to receiving less funding than initially anticipated and
having difficulties in managing contractor work, the IRS has not completed many Modernization
projects as planned. For example, the Customer Account Data Engine,2 the foundation of the
Modernization program, was originally planned to replace the complete Individual Master File in
2005. The current estimated completion date for this replacement is 2012. The IRS
Restructuring and Reform Act of 1998 set a long-range goal for the IRS to have at least
80 percent of all tax and information returns filed electronically by 2007. As of April 6, 2007,
69 percent of individual tax returns had been filed electronically.
In Calendar Year 2006, the IRS continued with its
delivery of Modernization project releases. The
Modernization program deployed new releases for the             The Modernization program has
                                                                continued to deploy new project
Customer Account Data Engine, Modernized e-File, and           application releases, improved its
Filing Payment and Compliance projects and began               method to account for its funding,
development of the Account Management Services                    and enhanced its program
project. In September 2006, the IRS submitted to                  management and strategy.
Congress a request to add $45 million to the Business
Systems Modernization Expenditure Plan and
Information Technology Investments account for Modernization program employee salaries.
Accounting for IRS labor costs associated with the Modernization program will allow for more
accurate reporting of program and project costs to outside stakeholders and will provide reliable
data for use in future budget considerations. In addition, the Modernization and Information
Technology Services organization’s management of the Highest Priority Initiatives through the
Enterprise Services organization is improving its service to customers. These initiatives included
transitioning the Modernization program integrator role to the IRS.
Although the IRS has made advances in its modernization effort, it has not maintained
anticipated progress. Since Fiscal Year 2002, our Modernization program annual assessments
have cited four specific challenges the IRS needs to overcome to deliver a successful
modernization effort. Because of decreased funding and difficulties in managing contractor
work, these challenges continue to exist. The challenges are to:


2
    See Appendix X for a glossary of terms.
                                                                                                 2
                                           Annual Assessment of the
                                    Business Systems Modernization Program



      1) Implement planned improvements in key management processes and commit necessary
         resources to enable success.
      2) Manage the increasing complexity and risks of the Modernization program.
      3) Maintain the continuity and strategic direction with experienced leadership.
      4) Ensure contractor performance and accountability are effectively managed.
In Fiscal Year 2006, the IRS reported users should limit reliance on its system of management
controls because it has remaining material weaknesses as part of the Federal Managers’ Financial
Integrity Act of 19823 reporting requirements. An October 25, 2006, memorandum from the
IRS Commissioner stated the IRS completed the actions identified in the Modernization material
weakness action plan that was developed in response to the initial identification of the material
weakness in Fiscal Year 1995. It is continuing to gather supporting evidence to show sustained
performance. However, the Modernization material weakness action plan has not been updated
to include weaknesses subsequently reported since 2003 by the Treasury Inspector General for
Tax Administration, the Government Accountability Office, and IRS studies. Although the
Modernization and Information Technology Services organization has taken actions to improve
its effectiveness and efficiency, the Modernization material weakness should not be downgraded
until the four challenges have been adequately resolved.

Recommendation
We recommended the Chief Information Officer continue to address Modernization program
corrective actions from Treasury Inspector General for Tax Administration and Government
Accountability Office reports through the Highest Priority Initiatives process. By focusing
corrective action efforts through this process, the IRS can begin to achieve resolution of the
challenges identified in this report and subsequently address downgrading the Modernization
material weakness.

Response
The Chief Information Officer agreed with our recommendation. The IRS will continue to
execute the Highest Priority Initiatives process and include Modernization program corrective
actions from Treasury Inspector General for Tax Administration and Government Accountability
Office reports. The IRS will continue to deliver monthly Highest Priority Initiatives reports until
it is able to downgrade the Modernization material weakness. Management’s complete response
to the draft report is included as Appendix XI.

3
    31 U.S.C. Sections 1105, 1113, 3512 (2000).


                                                                                                 3
                                   Annual Assessment of the
                            Business Systems Modernization Program



Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                             4
                                               Annual Assessment of the
                                        Business Systems Modernization Program




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Continues to Move Forward With
          the Modernization Program ..........................................................................Page 3
          Although the Internal Revenue Service Has Made Advances in Its
          Modernization Effort, It Has Not Maintained Anticipated Progress ............Page 7
          The Modernization Program Should Continue to Be Designated
          As a Material Weakness....................................................................... Page 13
                    Recommendation 1:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Modernization Projects and Status.......................................Page 19
          Appendix V – Enterprise Life Cycle Overview............................................Page 29
          Appendix VI – Modernization Program Funding Timeline .........................Page 33
          Appendix VII – Highest Priority Initiatives..................................................Page 37
          Appendix VIII – Open Recommendations Related to Modernization
          Program Material Weaknesses......................................................................Page 39
          Appendix IX – Recent Treasury Inspector General for Tax Administration
          Reports on the Internal Revenue Service’s Modernization Program............Page 44
          Appendix X – Glossary of Terms .................................................................Page 47
          Appendix XI – Management’s Response to the Draft Report ......................Page 51
                Annual Assessment of the
         Business Systems Modernization Program




                Abbreviations

CADE     Customer Account Data Engine
e-file   Electronic filing
HPI      Highest Priority Initiatives
IRS      Internal Revenue Service
MITS     Modernization and Information Technology Services
TIGTA    Treasury Inspector General for Tax Administration
                                          Annual Assessment of the
                                   Business Systems Modernization Program




                                             Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration (TIGTA) to annually evaluate the adequacy
and security of the IRS’ information technology. This report provides our assessment of the IRS
Business Systems Modernization (Modernization) program for Fiscal Year 2007.
The Modernization program, which began in 1999, is a
complex effort to modernize the IRS’ technology and                       The IRS planned to complete the
related business processes. According to the IRS, this                       Modernization program in
effort will involve integrating thousands of hardware                     10 years to 15 years at a cost of
and software components. All of this must be done                             approximately $8 billion.
while replacing outdated technology and maintaining the
current tax system.
To successfully deliver the Modernization program, the IRS planned to:
    y Partner with an experienced contractor that would assist in the management and delivery
      of the program.
    y Develop and implement a methodology to follow in planning, developing, implementing,
      and deploying Modernization program results (hardware, software, and business
      practices).
    y Implement a mature management and governance process.
    y Deliver approximately 13 modernized information systems. See Appendix IV for a table
      presenting the Modernization projects and their status.
    y Meet the IRS Restructuring and Reform Act of 1998 requirement of electronically filing
      80 percent of tax and information returns by Calendar Year 2007.
In December 1998, the IRS hired the Computer Sciences Corporation as its PRIME contractor2
for the Modernization program. It relied on the PRIME contractor to act as a systems integrator
to find and manage the best expertise and technical resources to achieve its organizational goals.
In addition, the Modernization program implemented the Enterprise Life Cycle3 to plan and
manage work throughout the Modernization program.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix X for a glossary of terms.
3
  Appendix V presents an overview of the Enterprise Life Cycle.
                                                                                                              Page 1
                                           Annual Assessment of the
                                    Business Systems Modernization Program



The Modernization program is in its ninth year and has received approximately $2.3 billion for
contractor services. The IRS had spent $220 million through Fiscal Year 2006 and plans to
spend an additional $45 million in Fiscal Year 2007 to
manage the Modernization program.4
                                                                       The Modernization program is in
According to the IRS’ original plan, the Modernization              its ninth year and has received
program would be near the halfway point by Calendar Year             approximately $2.3 billion for
2007. However, due to receiving less funding than initially               contractor services.
anticipated and having difficulties in managing contractor
work, the IRS has not completed many Modernization
projects as planned. For example, the Customer Account Data Engine (CADE), the foundation
of the Modernization program, was originally planned to replace the complete Individual Master
File in 2005. The current estimated completion date for this replacement is 2012. In addition,
the IRS Restructuring and Reform Act of 1998 set a long-range goal for the IRS to have at least
80 percent of all tax and information returns filed electronically by 2007. As of April 6, 2007,
69 percent of individual tax returns had been filed electronically.
This review was performed at the TIGTA office in Laguna Niguel, California. The information
presented in this report is derived from current and previous TIGTA, Government Accountability
Office, and IRS Oversight Board reports and discussions with appropriate Modernization
program officials.
Compilation of information for this report was conducted during the period January through
May 2007. Previous audits and our limited analyses were conducted in accordance with
Government Accounting Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




4
    Appendix VI presents the Modernization program funding timeline.
                                                                                                Page 2
                                   Annual Assessment of the
                            Business Systems Modernization Program




                               Results of Review

The Internal Revenue Service Continues to Move Forward With the
Modernization Program
In Calendar Year 2006, the IRS continued with its          The Modernization program has
delivery of Modernization project releases. The            continued to deploy new project
Modernization program deployed new releases for the       application releases, improved its
CADE, Modernized e-File, and Filing Payment and           method to account for its funding,
                                                             and enhanced its program
Compliance projects and began development of the
                                                             management and strategy.
Account Management Services project. From
January 2006 through May 4, 2007, the Modernization
program:
   y Introduced new CADE capabilities for the 2006 Filing Season. The Modernization
     program’s CADE supports faster refunds to taxpayers by issuing direct deposit refunds
     between 1 day and 7 days faster and paper refunds 4 days to 13 days faster than refunds
     generated by the current processing system. In Calendar Year 2006, the CADE posted
     more than 7.3 million returns (a greater than 400 percent increase over the previous year)
     and issued 7 million refunds totaling in excess of $3.4 billion. The CADE improved
     taxpayer service by allowing access to account information up to 7 days sooner, thus
     increasing the likelihood of single telephone call resolution, faster issue detection, and
     more timely account settlement. In Calendar Year 2007, the IRS reported that the CADE
     had posted approximately 11 million returns as of May 4, 2007.
   y Implemented Release 3.2 of its Modernized e-File project, which enabled the filing of
     both Federal and State returns concurrently for corporations (U.S. Corporation Income
     Tax Return (Form 1120) or U.S. Income Tax Return for an S Corporation (Form 1120S))
     and tax-exempt organizations (Return of Organization Exempt From Income Tax
     (Form 990)).
      In Calendar Year 2006, the Modernized e-File project supported an electronic filing
      mandate for certain large corporations and tax-exempt entities and accepted more than
      550,000 corporate returns. Tax returns for large corporations typically include hundreds,
      or even thousands, of pages. Receiving the data electronically improves the accuracy of
      the tax returns, reduces the volume of paper tax returns submitted to IRS campuses, and
      accelerates the examination process by having all tax return data available electronically.
      Electronic capture of return information enables the IRS to quickly deliver the data to
      analysts and agents for compliance risk assessment and action.

                                                                                          Page 3
                                    Annual Assessment of the
                             Business Systems Modernization Program



       The IRS has expanded the Modernized e-File system’s taxpayer base in Calendar
       Year 2007 to include partnership income tax returns (U.S. Return of Partnership Income
       (Form 1065)), eventually enabling nearly 2.7 million small business and self-employed
       taxpayers to benefit from electronic filing. The IRS is in the planning stage to migrate
       the individual tax return (U.S. Individual Income Tax Return (Form 1040)) to the
       Modernized e-File system. It plans to implement the initial deployment of Modernized
       e-File Form 1040 system capability in January 2009 and plans to complete Modernized
       e-File Form1040 system capability in January 2011.
   y Implemented the Filing Payment and Compliance project software. This project analyzes
     tax collection cases and separates cases that require direct IRS involvement from those
     that can be handled by Private Collection Agencies. The introduction of Private
     Collection Agencies is expected to assist the IRS by addressing the volume of delinquent
     taxpayers that exceeds the IRS’ work capacity, approximately 250,000 cases per year.
     This project also is expected to help eliminate backlogs in the large number of
     outstanding tax liabilities, which have grown by 118 percent over the last 12 years,
     thereby increasing tax revenue and reducing the tax gap.
   y Began the development of the Account Management Services project. This project, in
     conjunction with the CADE, will enable the IRS to break the weekly update system
     paradigm that has existed since the 1960s, enabling the IRS to begin to provide
     settlement of account information within 1 day, similar to what a person expects from
     major private-sector financial institutions. The first release of the Account Management
     Services is due in the summer of 2007. This release plans to support instant address
     change capability in the CADE and enable faster notice processing for taxpayers with
     mathematical errors on their tax returns.

The IRS has made improvements in its method to account for Modernization
program funding and expenditures by including associated IRS labor costs
The IRS budgets for Modernization program hardware and contractor costs in the Business
Systems Modernization Expenditure Plan and funds the costs through the Information
Technology Investments account. Labor costs associated with the Modernization program are
budgeted and funded through the Modernization and Information Technology Services (MITS)
organization’s budget.




                                                                                         Page 4
                                       Annual Assessment of the
                                Business Systems Modernization Program



In November 2001, we reported the Modernization program did not accurately account for IRS
costs associated with Modernization projects.5 While the IRS tracked and monitored contractor
costs, it had not established a means to accurately track and report the IRS labor costs associated
with Modernization projects.
With implementation of its new human resources system
(HR Connect) and accounting system (the Integrated                   Accounting for IRS labor costs
                                                                           associated with the
Financial System), the IRS has been able to begin tracking             Modernization program will
its labor costs associated with the Modernization program.          allow the IRS to properly budget
These systems allow the IRS to track costs to individual                   and fund all related
projects as well as to general Modernization program                 Modernization program costs.
support, such as requirements management and project
testing.
In September 2006, the IRS submitted to Congress a request to change its process to budget and
account for Modernization program labor costs. The IRS requested that Congress add
$45 million to the Business Systems Modernization Expenditure Plan and Information
Technology Investments account for Modernization program employee salaries.
Accounting for IRS labor costs associated with the Modernization program will allow for more
accurate reporting of Modernization program and project costs to outside stakeholders and will
provide reliable data for use in future budget considerations. In addition, Modernization
program management will be able to include these costs in important internal progress
measurements, such as earned value management and return on investment.

The Modernization program has begun reporting informative assessments of
variances between planned and actual project cost and schedule delivery
The Business Systems Modernization Expenditure Plan includes project status for in-progress
and recently delivered Modernization projects. This status includes an assessment of project
progress and accomplishments in terms of meeting cost and schedule estimates. The IRS
presents variances against original cost and schedule estimates and reports variances associated
with a project’s release delivery.
The Business Systems Modernization Expenditure Plan project status presentation acknowledges
circumstances where estimates exceed available budget funding and treats any use of additional
funds as a variance. The status is presented in tables showing the variances in both day and
dollar units, as well as percentages. The IRS is in the process of developing a method to assess
progress and accomplishments in meeting planned delivery of project capabilities.



5
 Modernization Project Teams Need to Follow Key Systems Development Processes (Reference
Number 2002-20-025, dated November 2001).
                                                                                                Page 5
                                             Annual Assessment of the
                                      Business Systems Modernization Program



The IRS began implementing the Information Technology Modernization Vision
and Strategy
In October 2006, the IRS issued the Information Technology Modernization Vision and Strategy,
which describes its business priorities for the next 5 years with particular emphasis on informing
and guiding the definition of investment priorities for Fiscal Years 2007 through 2009. The
initial emphasis of the investment priorities is on tax administration at the frontline and on
enabling technical capabilities provided by the infrastructure.
This strategy aims to optimize management capacity, provide a direction for managing program
costs, identify the ability to use common information technology services throughout the IRS,
and deliver business value in smaller and more frequent releases. The IRS plans to reuse
existing systems where possible and develop new projects only when necessary.

The IRS is continuing to identify and address its most significant issues and is
developing its organization to improve services to customers
The MITS organization is continuing to address significant challenges and program barriers by
identifying and implementing action plans. It is
accomplishing this by addressing the Highest Priority
Initiatives, a program of continual process                      The MITS organization’s
                                            6            management of its Highest Priority
improvement with executive-level oversight.                Initiatives through the Enterprise
The IRS is also continuing to develop its Enterprise              Services organization is
                                                                  improving its service to
Services organization. In Calendar Year 2004, the IRS            customers. These issues
began investigating industry best practices for                     included successful
organizing certain information technology services            implementation of initiatives to
common to all projects under development. In an                transition the Modernization
effort to improve services provided to internal             program integrator role to the IRS.
customers, the MITS organization began consolidating
several existing functions and offices to form the new
Enterprise Services organization under a newly
appointed Associate Chief Information Officer. With a Fiscal Year 2007 estimated budget of
$85.9 million, the Enterprise Services organization is structured into 2 functions: Business
Integration and Systems Integration. This restructuring of multiple MITS organization functions
into the Enterprise Services organization included 667 IRS employees as of May 1, 2007.
In Calendar Year 2006, the IRS continued work to assume the role as integrator for the
Modernization program effort. In January 2005, due to budget reductions and concerns about the
adequacy of the PRIME contractor’s performance, the IRS began transitioning numerous
activities from the PRIME contractor and taking over the primary role as the systems integrator


6
    Appendix VII presents the Highest Priority Initiatives identified by the IRS and their status as of April 2007.
                                                                                                                 Page 6
                                    Annual Assessment of the
                             Business Systems Modernization Program



for all projects. The systems integrator role is a significant operational change for the IRS,
requiring new procedures, personnel, and offices. The IRS has successfully taken the first steps
to transition modernization activities away from the PRIME contractor and is taking additional
actions to build on these initial steps.

Although the Internal Revenue Service Has Made Advances in Its
Modernization Effort, It Has Not Maintained Anticipated Progress
Since Fiscal Year 2002, our Modernization program annual assessments have cited four specific
challenges the IRS needs to overcome to deliver a successful modernization effort. Because of
decreased funding and difficulties in managing contractor work, these challenges continue to
exist. The challenges are to:
   1) Implement planned improvements in key management processes and commit necessary
      resources to enable success.
   2) Manage the increasing complexity and risks of the Modernization program.
   3) Maintain the continuity and strategic direction with experienced leadership.
   4) Ensure contractor performance and accountability are effectively managed.

Implement planned improvements in key management processes and commit
necessary resources to enable success
The MITS organization has taken steps to assume the integrator role of the Modernization
program. It is in the process of transitioning these activities and developing mature management
capabilities and repeatable processes. During Calendar Year 2006, we reported the need for
management process improvements in the following areas:
   y The IRS has not developed performance measures for all of the transitioned activities that
     can be measured. The Transition Management Performance Measurement Process did
     not provide a means to measure the interim status of the Transition Management process
     and its resultant products.
   y The Transition Management Office can further improve transition efforts by ensuring
     project readiness activities adhere to guidance. The Integrated Financial System project
     did not follow guidance that required it to validate and control readiness activities to help
     ensure completion of the Transition Management Plan.
   y To ensure the Federally Funded Research and Development Corporation continues to
     meet the IRS’ needs, the IRS should more effectively monitor the contractor’s
     performance in terms of timeliness, quality, and cost. For example, the IRS did not
     prepare a Task Order Monitoring Plan, a practice commonly employed for modernization
     task orders, for this contractor’s task orders. A Task Order Monitoring Plan describes the

                                                                                           Page 7
                                          Annual Assessment of the
                                   Business Systems Modernization Program



        various Federal Government roles and responsibilities for monitoring and documenting
        the contractor’s performance against timeliness, quality, and cost goals.
    y Post Implementation Reviews assess the effect of a new information technology project
      by comparing and evaluating actual project results to estimates of cost, schedule,
      performance, and mission improvement outcomes. Federal law,7 executive branch
      guidance,8 and the IRS Enterprise Life Cycle establish the
      need to perform Post Implementation Reviews after
      project completion and after completion of major project       The key focuses of Post
      releases. However, the IRS has completed only one Post         Implementation   Reviews
                                                                      are to assess the effect
      Implementation Review since the Modernization program           of new projects on the
      began. Although existing procedures provide adequate           IRS mission, customers,
      directions for performing Post Implementation Reviews,               workforce, and
      the Program Performance Management office has not                     technology.
      scheduled Reviews for all projects that have exited
      milestones or for deployed releases. The Chief
      Information Officer stated the MITS organization does not
      have the resources to perform Post Implementation Reviews, and it is uncertain when it
      will begin performing them.
    y The Enterprise Services organization needs to further define its missions and goals,
      validate staffing assignments, and create performance measures. In Calendar Year 2005,
      the MITS organization began consolidating several existing functions and offices to form
      the new Enterprise Services organization under a newly appointed Associate Chief
      Information Officer, in an effort to improve services provided to internal customers.
      However, the overall mission, purpose, and goals of the Enterprise Services organization
      at the program level need to be defined and detailed to provide the necessary direction
      and oversight to the Enterprise Services organization functions and their offices.
Without consistent implementation of mature management capabilities and defined, repeatable
processes, Modernization projects experienced delays and increased development costs. These
delays and increased costs have contributed to the Modernization program delivering projects
and releases with fewer capabilities than originally planned. Table 1 shows project cost and
schedule variances incurred on Modernization project releases from January 2006 through
May 2007, as reported by the IRS.



7
  Clinger-Cohen Act of 1996 (Federal Acquisition Reform Act of 1996) (Information Technology Management
Reform Act of 1996), Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app.,
10 U.S.C., 15 U.S.C., 16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C.,
41 U.S.C., 42 U.S.C., 44 U.S.C., 49 U.S.C., 50 U.S.C.).
8
  Management of Federal Information Resources (Office of Management and Budget Circular No. A-130, dated
March 2006).
                                                                                                            Page 8
                                      Annual Assessment of the
                               Business Systems Modernization Program



        Table 1: Modernization Project Cost and Schedule Variance Summary

                    Current                         Cost          Cost      Schedule   Schedule
                     Finish                       Variance      Variance    Variance   Variance
       Release        Date          Milestone     (Dollars)     (Percent)    (Days)    (Percent)
     CADE
      1.3.2      January 17, 2006                 ($713,000)       -3%         10         3%
       2.1       August 25, 2006        4         $4,190,000       15%         11         7%
       2.2         May 28, 2007         4           $779,000       3%         101        54%
         3     November 20, 2006       2-3                $0        0%          0         0%
     Modernized e-File
       3.2        March 22, 2006       4-5        $8,550,000       36%         -7        -2%
         4        April 24, 2007       4-5          $750,000       3%          16         5%
         5        March 5, 2007         3           $200,000       4%          30        41%
     Account Management Services
       1.1       January 31, 2007      2-3                $0        0%          0        0%
       1.1        April 30, 2007       4a                 $0        0%          0        0%
       1.1     September 27, 2007      4b                 $0        0%          0        0%
       1.2        March 13, 2007       2-3                $0        0%          0        0%
     Filing and Payment Compliance
       1.1       January 31, 2007      3-5          $484,000        6%          0         0%
       1.2      February 28, 2006       3       ($7,536,000)      -46%          0        0%
       1.2         July 10, 2006       4a                 $0        0%          5         6%
       1.2       January 19, 2007      4b         ($340,000)       -3%         -8        -6%
    Source: IRS Applications Development organization – Resources Management office.

Manage the increasing complexity and risks of the Modernization program
TIGTA audit reports issued from April 2006 through May 2007 stated that the MITS
organization needs to comply with its Enterprise Life Cycle project development guidance.
Compliance with project milestone development and exit criteria will help the IRS ensure the
contractor meets its responsibilities.
We reported Enterprise Life Cycle compliance gaps on the CADE and Modernized e-File
projects and reported the following examples of Modernization project teams not complying with
Enterprise Life Cycle guidance:
   y    Adequate procedures were not in place to ensure all CADE Release 1.3 requirements
        were timely controlled. When we requested a complete list of Release 1.3 requirements,
        the project team and the PRIME contractor needed more than 3 months to assemble and
        provide us with all information relating to the requirements.


                                                                                                   Page 9
                                    Annual Assessment of the
                             Business Systems Modernization Program



   y   CADE Release 2.1 deferred requirements to later releases
       because all of the work related to the release requirements     Effective requirements
       was not identified during the Enterprise Life Cycle                development and
                                                                       management will allow
       Preliminary Design Phase of the project.
                                                                       for more effective and
   y   During the development and deployment of Modernized                 efficient project
                                                                            development.
       e-File Release 3.2 in Calendar Year 2006, the project
       team could not complete plans for release requirements
       due to funding uncertainties and the uncertainty of the
       release content and schedule. The project team
       experienced further difficulties because of extended requirements development,
       deferrals, and additions. These complexities affected project management’s ability to
       use fixed-price contracts, which provide the highest level of assurance that the Federal
       Government receives the defined services for the agreed-upon price.
   y   The IRS did not ensure completed projects and releases were reviewed after
       implementation, as required by the Enterprise Life Cycle.
In addition, the IRS has experienced similar issues with non-Modernization projects such as the
Electronic Fraud Detection System. Our initial review of the Electronic Fraud Detection System
found that executive oversight was not adequate, risks were not effectively managed, contractor
performance was not effectively monitored, and performance-based contracts were not used.
During our followup review of the Electronic Fraud Detection System, we found that executive
oversight, management of project risks, and contractor performance had improved.
Inconsistent compliance with Enterprise Life Cycle project development controls has contributed
to delays in project and release deliveries, increased development costs, and reduced
functionality. Application of these controls will become increasingly important as the IRS
expands them to both Modernization and non-Modernization projects.

Maintain the continuity and strategic direction with experienced leadership
Since our last Modernization annual assessment in April 2006, the MITS organization has
undergone significant changes. It completed a major reconfiguration of systems and application
development offices and has consolidated all systems development (both Modernization and
non-Modernization projects) under one office, the Applications Development organization. This
organization was created to allow the MITS organization to better manage development costs
and deliver higher quality service to customers. It plans to improve development performance
by removing the gaps, overlaps, and inconsistencies inherent with maintaining two separate
applications development organizations.




                                                                                         Page 10
                                      Annual Assessment of the
                               Business Systems Modernization Program



The Applications Development organization            The MITS organization reconfigured itself with
will also advance MITS organization strategic        the Applications Development and Enterprise
goals to 1) improve service, 2) deliver                  Services offices, refocused its goals in
Modernization, and 3) increase value. A new               assuming the integrator role for the
                                                          Modernization program, and began
Associate Chief Information Officer,                   implementing the Information Technology
Applications Development, was appointed to                Modernization Vision and Strategy.
manage all MITS organization systems and
application development activities. The
Business Systems Modernization Office no
longer exists.
As part of the organizational changes, the Associate Chief Information Officer, Business
Systems Modernization, was appointed to the Chief Information Officer position after the
resignation of the former Chief Information Officer. The current Chief Information Officer
assumed this position in September 2006, becoming the IRS’ fifth such Officer in 8 years. The
current Associate Chief Information Officer, Applications Development, was appointed in
October 2006, after serving as the Deputy Associate Chief Information Officer, Business
Integration. Therefore, the Associate Chief Information Officer, Applications Development, has
become the sixth executive responsible for the Modernization program in its 9 years of existence.
The MITS organization published its Information Technology
Modernization Vision and Strategy in October 2006. The
objective of this document was to establish a 5-year plan,             The Information Technology
focusing on identifying both major and nonmajor investments             Modernization Vision and
needed to achieve Modernization goals and defining an                    Strategy recognizes that
                                                                       modernization goals can be
integrated portfolio for Fiscal Years 2007 and 2008 investment              achieved through a
plans for both major and nonmajor investments.                             combination of new
                                                                         systems; leveraging and
The MITS organization has changed the governance roles of the            enhancement of existing
MITS Enterprise Governance Investment Management                       systems; and application of
committee and has established an Executive Advisory Board                   common services,
based on Information Technology Modernization Vision and               applications, and standards.
Strategy processes and categories. In addition, Executive
Steering Committee roles have been aligned with the
Information Technology Modernization Vision and Strategy
categories.
The IRS began assuming the primary Modernization program integrator role from the PRIME
contractor during Calendar Year 2005 and identified 14 activities it needed to assume to
transition modernization activities from the PRIME contractor. However, as of
October 24, 2006, it had assumed only 2 of these 14 activities. For the remaining 12 activities,
the IRS had taken positive first steps and established an initial capability. The transition will not


                                                                                             Page 11
                                           Annual Assessment of the
                                    Business Systems Modernization Program



be complete until additional actions are taken and the IRS has more time to consistently use new
processes and strengthen its new capabilities.
In March 2005, the MITS organization began consolidating several existing functions and offices
to form the new Enterprise Services organization under a newly appointed Associate Chief
Information Officer, in an effort to improve services provided to internal customers. In
May 2006, the Enterprise Services organization documented the missions and goals of its
subordinate offices. In early 2007, the validation of these missions and goals was ongoing at
many levels of the Enterprise Services organization, and work was underway to define
short-term and long-term (transformational) plans, validate staffing assignments, and measure
performance. Additional changes to the Enterprise Services organization structure were also
being considered.
While these new structures may prove beneficial over the long run, the continuity in
Modernization program management has again been interrupted. The continual changes in
management add to the time and cost of delivering the Modernization program. For these
changes to improve program-level management in the long run, the managers must first go
through a learning curve. The MITS organization can achieve the intended benefits from this
new structure only with dedication to development and maturation of the processes supporting
the Modernization program.

Ensure contractor performance and accountability are effectively managed
The IRS uses contractors to perform the vast majority of the Modernization program design and
development. Contractors have received 90 percent of the funding for Modernization program
work.9 In Calendar Year 2006, our reviews identified opportunities to improve the IRS’ contract
management and oversight of the Modernization program.
      y    Our review of the PRIME Program Management office               The IRS can strengthen its
           found that the IRS could strengthen task order monitoring       management of contractor
           to ensure it is spending Federal Government funds wisely.     performance with more timely
           The IRS did not prepare Quarterly Status Reports, as         negotiations, improved controls
           required by the task order monitoring plan to document       for monitoring task orders, and
                                                                         implementation of accounting
           monitoring results, and inconsistently implemented some          controls to track project
           monitoring processes.                                                 requirements.
      y    Extended development, deferral, and additions to
           requirements have made project funding and contract
           accounting difficult. As the Modernized e-File project was developed, additional funding
           was needed to add controls to reduce potential system security threats and to implement
           unplanned system changes. Funds designated for future release development were used


9
    See Appendix VI for an analysis of Modernization program funding.
                                                                                           Page 12
                                     Annual Assessment of the
                              Business Systems Modernization Program



software. The Model defines five levels of software acquisition maturity. Each level of maturity
indicates process capability and identifies key process areas. For a maturity level to be achieved,
all key process areas related to that level must be implemented effectively.
The IRS determined that Software Acquisition Capability
Maturity Model level 2 would provide sufficient
management processes to effectively manage the                    To provide a foundation for
Modernization program effort. In March 2003, the                  mature, repeatable software
                                                                 acquisition processes, the IRS
Modernization program was certified as compliant with
                                                                chose to implement the Software
Software Acquisition Capability Maturity Model level 2.         Engineering Institute’s Software
This designation indicates the Modernization program has         Acquisition Capability Maturity
documented a set of repeatable, disciplined management                       Model.
processes that increase the probability of success for the
Modernization program.
In August 2006, the Software Engineering Institute released the updated version of its Software
Acquisition Capability Maturity Model, now called the Capability Maturity Model Integrated.
The major themes of the Capability Maturity Model Integrated are to reduce the size and
complexity of the Model, increase Model coverage, and increase confidence in appraisal results.
With the release of the Capability Maturity Model Integrated, the Software Engineering Institute
announced that existing Software Acquisition Capability Maturity Model certifications will
expire on August 25, 2007. Continued reference to the IRS as a certified Capability Maturity
Model Integrated organization will require the IRS to be reappraised.
As discussed previously, the IRS continues to encounter problems related to the four challenges
it needs to overcome to deliver a successful modernization effort, indicating program risks
remain. In addition, the Government Accountability Office continues to include the
Modernization program on its list of high-risk programs.
The IRS has continued to recognize the importance of improving the Modernization program.
The MITS organization is continuing to address significant challenges and program barriers by
addressing the Highest Priority Initiatives. Initially, IRS executives and managers use this
process to identify and seek resolution for the highest priority initiatives facing the
Modernization program. IRS executives and senior managers are appointed to oversee the plans
to resolve each of the highest priority initiatives, and progress is reported monthly. New
initiatives are identified every 6 months. This process is in its sixth 6-month cycle and has been
expanded to include initiatives affecting the entire MITS organization.
Although the MITS organization has taken actions to address initiatives affecting its
effectiveness and efficiency, the Modernization material weakness should not be downgraded
until the four challenges have been adequately resolved.




                                                                                           Page 14
                                     Annual Assessment of the
                              Business Systems Modernization Program



Recommendation
Recommendation 1: The Chief Information Officer should continue to address
Modernization program corrective actions from TIGTA and Government Accountability Office
reports through the Highest Priority Initiatives process. By focusing corrective action efforts
through this process, the IRS can begin to achieve resolution of the challenges identified in this
report and subsequently address downgrading the Modernization material weakness.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation, acknowledging that the Highest Priority Initiatives process is a
       prescribed 6-month cycle for the MITS Associate Chief Information Officer
       organizations to identify, select, manage, and prioritize initiatives that executive
       leadership considers crucial for continued strategic growth and success. Corrective
       actions are evaluated and submitted as Highest Priority Initiatives candidates, when
       appropriate, and are selected based upon executive leadership discretion. In this manner,
       the IRS will continue to execute the Highest Priority Initiatives process and include
       Modernization program corrective actions from TIGTA and Government Accountability
       Office reports. The IRS will continue to deliver monthly Highest Priority Initiatives
       reports until it is able to downgrade the Modernization material weakness.




                                                                                           Page 15
                                       Annual Assessment of the
                                Business Systems Modernization Program



                                                                                           Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the progress of the IRS’ Business Systems
Modernization (Modernization) program for Fiscal Year 2007, as required by the IRS
Restructuring and Reform Act of 1998.1 To accomplish this objective, we:
I.      Determined the current condition of the Modernization program.
        A. Reviewed TIGTA reports issued from April 2006 through April 20072 and five
           previous Modernization program annual assessment reports (issued in Fiscal
           Years 2002, 2003, 2004, 2005, and 2006).3
        B. Reviewed recent IRS Oversight Board documents to identify current IRS Oversight
           Board issues and concerns.
        C. Reviewed Government Accountability Office reports relevant to Modernization
           program activities.
II.     Determined the status and condition of the Modernization program reported by the IRS
        by reviewing the following documentation.
        A. The Systems Modernization Material Weakness Plan.
        B. The Information Technology Modernization Vision and Strategy4 documents.
        C. The Business Systems Modernization Expenditure Plans and evaluated any cost,
           schedule, and functionality variances. We did not validate the information provided
           by the IRS on the cost, scope, and business value of the Modernization program.
        D. The IRS’ Highest Priority Initiatives5 status reports for the Modernization program.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix IX for a detailed list of recent TIGTA reports and associated findings.
3
  Annual Assessment of the Business Systems Modernization Program (Reference Number 2002-20-189,
dated September 2002); Annual Assessment of the Business Systems Modernization Program (Reference
Number 2003-20-208, dated September 2003); Annual Assessment of the Business Systems Modernization Program
(Reference Number 2004-20-107, dated June 2004); Annual Assessment of the Business Systems Modernization
Program (Reference Number 2005-20-102, dated August 2005); and Annual Assessment of the Business Systems
Modernization Program (Reference Number 2006-20-102, dated June 2006).
4
  See Appendix X for a glossary of terms.
5
  See Appendix VII for details on the Highest Priority Initiatives.
                                                                                                   Page 16
                                   Annual Assessment of the
                            Business Systems Modernization Program



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Edward A. Neuwirth, Audit Manager
Michael A. Garcia, Senior Auditor
Glen J. Rhoades, Senior Auditor
Charlene Elliston, Auditor




                                                                                     Page 17
                                 Annual Assessment of the
                          Business Systems Modernization Program



                                                                         Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Director, Test, Assurance, and Documentation OS:CIO:AD:TAD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Director, Procurement OS:A:P
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 18
                                             Annual Assessment of the
                                      Business Systems Modernization Program



                                                                                                    Appendix IV

                      Modernization Projects and Status

Table 1 presents the Modernization projects initiated by the IRS and the status of these projects
as of April 2007. Projects are presented by year in the order in which they were initiated.
                                      Table 1: Modernization Projects
    Project Name           Year               Project Description                 Project Status per the IRS
                         Initiated/
                           Year
                         Launched
Custodial                 Initiated     Uses a data warehousing             Canceled February 2005.
Accounting Project         1999/        approach for storing, analyzing,
                            Not         and reporting taxpayer accounts
                          Launched      and collections information.
Infrastructure1           Initiated     Provides a customer-focused         • Provides secure Internet solutions for
Shared Services:           1999/        technical infrastructure for          registered and employee users and
                          Launched      secure telephone and electronic       related registration processes, security
Security and
                            2002        interaction among employees,          access controls, intrusion detection, and
Technology
                                        tax practitioners, and taxpayers.     audit trail processing.
Infrastructure
Release                                                                     • Is critical to the success of the Integrated
                                                                              Financial System, e-Services, Internet
                                                                              Refund/Fact of Filing, Modernized e-
                                                                              file, and Internet Employee Identification
                                                                              Number projects that rely on secure,
                                                                              robust portal access.
                                                                            • Supports the acquisition, installation, and
                                                                              operation of the development and test
                                                                              environments that support all
                                                                              modernization initiatives. The increased
                                                                              stability of the Development,
                                                                              Integration, and Test Environment and
                                                                              timely acquisition of hardware/software
                                                                              to support project schedules has
                                                                              contributed significantly to improved
                                                                              project performance.




1
    See Appendix X for a glossary of terms.
                                                                                                                Page 19
                                         Annual Assessment of the
                                  Business Systems Modernization Program




 Project Name          Year            Project Description                 Project Status per the IRS
                     Initiated/
                       Year
                     Launched
Customer             Initiated     Improves communications           • 68,000 calls in one 3-minute period
Communications        1999/        infrastructure, including           during initial week (coincided with start
                     Launched      telephone call management,          of the Advanced Tax Refund of 2001).
                       2001        call routing, and customer
                                   self-service applications.        • 50 percent reduction in wait time for
                                                                       assistors to answer calls.
                                                                     • 50 percent reduction in abandoned calls.
                                                                     • More accurate prerouting of calls.
Customer             Initiated     Provides standard tax             • Deployed to almost 4,000
Relationship          1999/        computation software to Large       Large/Medium/Small Business revenue
Management Exam      Launched      and Mid-Size Business               agents.
                       2001        Division revenue agents.
                                                                     • Taxpayers can independently verify a
                                                                       revenue agent’s computations.
                                                                     • Allows for “what-if” computations to
                                                                       better use the examiners’ and taxpayers’
                                                                       time.
Enterprise Systems   Initiated     Executes a strategy to provide    • Provides enterprise systems management
Management            2000/        network and systems                 and monitoring of the e-Services,
                     Launched      management to improve the           Integrated Financial System,
                       2002        information technology              Modernized e-File, and Internet
                                   infrastructure availability and     Refund/Fact of Filing projects and core
                                   performance.                        infrastructure systems.
                                                                     • Gathers information and provides
                                                                       appropriate response through monitors at
                                                                       the component, business, and enterprise
                                                                       levels.
                                                                     • Provides reliability, high availability,
                                                                       and optimal performance of complex
                                                                       e-business infrastructure and
                                                                       applications, helping to meet and exceed
                                                                       both internal and external service level
                                                                       agreements and reducing total cost of
                                                                       ownership.
                                                                     • Allows for proactive identification and
                                                                       resolution of information technology
                                                                       problems.




                                                                                                       Page 20
                                    Annual Assessment of the
                             Business Systems Modernization Program




 Project Name     Year            Project Description                  Project Status per the IRS
                Initiated/
                  Year
                Launched
CADE            Initiated     Provides an online, modernized     • Release 1.1 went into production
                 2000/        data infrastructure that will        July 12, 2004, issuing refunds over
                Launched      house the authoritative taxpayer     50 percent faster than the Master File.
                  2004        account and return data.
                                                                 • The processing of returns in the CADE
                              The CADE replaces the IRS            marks the first time in 40 years that
                              Master File, the repository of       American tax returns have been
                              all taxpayer information.            processed in a system other than the
                                                                   Master File.
                                                                 • Release 1.3.2 was implemented in
                                                                   January 2006. The CADE is now able to
                                                                   process a subset of Forms 1040EZ, 1040,
                                                                   and 1040A with no schedules.
                                                                 • For the 2006 Filing Season, more than
                                                                   7,372,572 returns were posted by the
                                                                   CADE. The CADE issued more than
                                                                   2,811,278 electronic and
                                                                   3,805,085 paper refunds that combined
                                                                   totaled more than $3,435,883,754.
                                                                 • CADE Release 2.1 became operational
                                                                   in September 2006, expanding the
                                                                   Form 1040 processing to include
                                                                   Schedules A, B, and R; Form 1040A
                                                                   Schedules 1 and 3; and Form 1040 filers
                                                                   claiming the Head of Household filing
                                                                   status.
                                                                 • CADE Release 2.2 began supporting the
                                                                   2007 Filing Season in March 2007. This
                                                                   release includes filing season changes
                                                                   and capabilities to handle the Telephone
                                                                   Excise Tax Refund and additional
                                                                   Form 1040 schedules.
                                                                 • To date, the CADE has posted
                                                                   8,587,976 returns and issued more
                                                                   than8,441,893 refunds totaling in excess
                                                                   of $9,457,341,713.
                                                                 • Direct deposit refunds continue to be
                                                                   issued 4 business days after posting to
                                                                   the CADE, and paper refunds continue
                                                                   to be issued 6 business days after posting
                                                                   to the CADE.

                                                                                                   Page 21
                                       Annual Assessment of the
                                Business Systems Modernization Program




 Project Name        Year            Project Description                Project Status per the IRS
                   Initiated/
                     Year
                   Launched
CADE (continued)                                                  • The IRS continues to quantify taxpayer
                                                                    savings due to decreased cycle time for
                                                                    CADE-processed returns. Since
                                                                    Release 2.2 was implemented in
                                                                    March 2007, more than $823,303 in
                                                                    potential interest earned for direct
                                                                    deposit refunds (3.5 days for the CADE
                                                                    versus 7 days for legacy-processed
                                                                    returns), more than $1,335,736 in
                                                                    potential interest earned for paper
                                                                    refunds (7 days quicker than
                                                                    legacy-processed returns), and more than
                                                                    $5,887,000 in potential Refund
                                                                    Anticipation Loan fees were eliminated
                                                                    by CADE processing.
e-Services          Initiated    Focuses on revolutionizing the   • More than 230,000 online registration
                     2000/       way taxpayers transact and         participants of the Registered User
                   Launched      communicate with the IRS.          Portal.
                   2003-2004
                                 Creates a web portal and value   • More than 309,000 Electronic Return
                                 adding e-Services to promote       Originator applications for electronic
                                 the goal of conducting most of     filing (e-file).
                                 the IRS’ transactions with tax
                                 practitioners electronically.    • More than 381,000 online requests for
                                                                    Preparer Taxpayer Identification
                                                                    Numbers.
                                                                  • More than 196 million bulk Taxpayer
                                                                    Identification Number match requests
                                                                    processed.
                                                                  • More than 7.8 million interactive
                                                                    Taxpayer Identification Number match
                                                                    requests since launch.
                                                                  • Transcript Delivery System processed,
                                                                    as of April 10, 2007, more than
                                                                    2,243,704 requests via the Registered
                                                                    User Portal. Through February 2007,
                                                                    more than 359,000 transcripts were
                                                                    processed using the new Income
                                                                    Verification Express Services user fee
                                                                    functionality, with potential IRS revenue
                                                                    of more than $1.6 million.
                                                                  • Transcript Delivery System processed

                                                                                                    Page 22
                                    Annual Assessment of the
                             Business Systems Modernization Program




 Project Name     Year            Project Description                 Project Status per the IRS
                Initiated/
                  Year
                Launched
e-Services                                                       more than 10.7 million requests for
(continued)                                                      transcripts via the Employee User Portal
                                                                 since launch in May 2005.
                                                                • More than 125,000 Power of Attorney
                                                                  requests received through Disclosure
                                                                  Authorization.
                                                                • Received and processed more than
                                                                  26,000 requests via Electronic Account
                                                                  Resolution.
                                                                • The Taxpayer Identification Number
                                                                  matching tool in the current suite of
                                                                  e-Services applications has uncovered
                                                                  more than $35.7 million in potential
                                                                  unpaid taxes on Miscellaneous Income
                                                                  (Form 1099 series).
                                                                • New fingerprinting capability reduced
                                                                  turnaround time for fingerprint card
                                                                  checks from an average of 30 days to an
                                                                  average of 1 day for cards with “hits”
                                                                  and to an average of 15 minutes for cards
                                                                  with “no hits.”
                                                                • Total operational savings (print/mail/
                                                                  labor costs) of more than $45 million for
                                                                  e-File Application, Preparer Taxpayer
                                                                  Identification Numbers, Disclosure
                                                                  Authorization, Transcript Delivery
                                                                  System, Electronic Account Resolution,
                                                                  and Address Change via the Registered
                                                                  User Portal and Employee User Portal.
                                                                • E-Services and Modernized e-File were
                                                                  2 of 11 winners of the 2005 Government
                                                                  Computer News Agency Award for
                                                                  Innovation, out of a field of
                                                                  132 nominations.
HR Connect      Initiated     Delivers an enterprise solution   • All IRS employee accounts are now on
                 2001/        to allow IRS employees to           HR Connect.
                Launched      access and manage their human
                  2002        resources information online.     • Accessible by kiosks for campus
                                                                  employees who do not have desktop
                                                                  access.


                                                                                                  Page 23
                                        Annual Assessment of the
                                 Business Systems Modernization Program




 Project Name        Year             Project Description                  Project Status per the IRS
                   Initiated/
                     Year
                   Launched
HR Connect                                                           • HR Connect upgraded the software
(continued)                                                            platform to PeopleSoft 8.3®;
                                                                       enhancements include increased
                                                                       employee self-service functionality and
                                                                       additional management reports.
                                                                     • HR Connect Workforce Analytics offers
                                                                       management information to each
                                                                       business unit based on its organizational
                                                                       requirements (e.g., the status of the
                                                                       workforce, vacancies, upcoming
                                                                       retirements, and pending personnel
                                                                       actions are available at each management
                                                                       level).
                                                                     • Cited by the IRS Commissioner as a
                                                                       factor in the redirection of roughly
                                                                       750 staff years to enforcement.
Integrated         Initiated      Operates as the new IRS            • Achieved initial operating capability on
Financial System   2001/          accounting system, replacing         November 10, 2004, and achieved full
                   Release 1      the IRS’ core financial systems,     operating capability on January 31, 2005.
                   launched in    including expenditure controls,
                   2004           accounts payable, accounts         • More than 2,100 end users have been
                                  receivable, general ledger,          trained and are using the Integrated
                                  budget formulation, and              Financial System daily.
                                  purchasing controls.               • The monthly Statement of Transactions
                                  The Integrated Financial             (Form SF-224) and Treasury Reporting
                                  System manages the IRS’              files have been submitted to the
                                  $10.4 billion operating budget       Department of the Treasury on time
                                  for administering tax payments,      since going live in November 2004.
                                  collecting taxes, and enforcing    • The IRS received an “unqualified
                                  tax laws. Currently, the             opinion on its financial statements” from
                                  Integrated Financial System is       the Government Accountability Office
                                  in an operations and                 for Fiscal Year 2006 for the second
                                  maintenance phase.                   consecutive year under the Integrated
                                                                       Financial System. Again, the
                                                                       Government Accountability Office did
                                                                       not issue any systemic audit inquiries or
                                                                       matters for further consideration relating
                                                                       to the Integrated Financial System.
                                                                     • Moved the Statement of Net Cost to the
                                                                       Business Warehouse, improving
                                                                       performance and timeliness of cost

                                                                                                        Page 24
                                       Annual Assessment of the
                                Business Systems Modernization Program




 Project Name        Year           Project Description         Project Status per the IRS
                   Initiated/
                     Year
                   Launched
Integrated                                                 information to decision makers.
Financial System                                           Allowed the IRS to confidently use the
(continued)                                                automated Statement of Net Cost for
                                                           Financial Reporting and audit purposes,
                                                           eliminating the very labor-intensive,
                                                           manual Statement of Net Cost.
                                                          • Improved sender cost information in the
                                                            allocation process that provided
                                                            transparency to end users on overhead
                                                            costs allocated to their organizations.
                                                          • Implemented new Purchase Card
                                                            interface among the Integrated Financial
                                                            System, the Request Tracking System,
                                                            and the Integrated Procurement System,
                                                            which resulted in an automated process
                                                            for reconciliation and payment of IRS
                                                            Purchase Card invoices in the Integrated
                                                            Financial System. This new process
                                                            eliminated a very labor-intensive,
                                                            error–prone, and costly manual process,
                                                            freeing up valuable business unit
                                                            resources. It also provides timely and
                                                            accurate information on Purchase Card
                                                            funding, positions the IRS to increase
                                                            rebates, and improves audit information.
                                                          • Worked with the Procurement Office on
                                                            improved Material Group coding and
                                                            guidance facilitating more accurate
                                                            accounting information on procurement
                                                            actions. This resulted in improved
                                                            financial reporting information and
                                                            reduced audit risk.
                                                          • The Monthly Treasury Reporting file has
                                                            been submitted to the Department of the
                                                            Treasury within a 3-day close time
                                                            period since the Integrated Financial
                                                            System went into production in
                                                            November 2004.
                                                          • Developed eight Status of Funds
                                                            workbook reports as requested by the
                                                            business units.

                                                                                           Page 25
                                             Annual Assessment of the
                                      Business Systems Modernization Program




    Project Name           Year             Project Description                 Project Status per the IRS
                         Initiated/
                           Year
                         Launched
Integrated                                                                • Implemented improved upward and
Financial System                                                            downward adjustment program.
(continued)
                                                                          • Developed new business processes and
                                                                            configured the Integrated Financial
                                                                            System to support the Private Collection
                                                                            Agency initiative. The IRS has collected
                                                                            approximately $17.8 million to date.
Internet Refund/         Initiated     Improves customer self-service     • Processed more than 22,677,344 refund
Fact of Filing            2001/        to the taxpayer by providing         status/fact of filing inquiries
                         Launched      instant refund status                (October 1, 2006 to April 1, 2007).
                           2002        information and instructions for
                                       resolving refund problems to       • Received more than 28,345,632 inquiries
                                       taxpayers with Internet access.      so far in Fiscal Year 2007
                                                                            (October 1, 2006 to April 1, 2007).
Advance Child Tax        Initiated     Modifies the Internet              • 15.5 million inquiries in 2003.
Credit                    2002/        Refund/Fact of Filing
                                                                          • 12.3 million inquiries in 2004.
                         Launched      application to provide taxpayers
                           2003        with Advance Child Tax Credit      • Application has served its purpose; its
                                       refund status on the Internet.       life cycle ended on December 31, 2004.

Internet Employee        Initiated     Allows businesses and              • 7,113,658 Internet Employee
Identification            2002/        taxpayers to apply for and           Identification Number applications
Number                   Launched      receive Employee Identification      received to date (as of March 24, 2007).
                           2003        Numbers over the Internet.
Customer Account         Initiated     Interfaces the redesigned          • Suspended.
Management                2002/        business processes to be used
                           Not         daily by IRS customer service
                         Launched      representatives. Due to budget
                                       constraints, the project has not
                                       been funded since Fiscal
                                       Year 2003.
Filing and Payment       Filing and    Improves the processes and         • Release 1 will provide infrastructure,
Compliance/               Payment      technologies that support the        processes, and organizational structure to
Collection Contract     Compliance     Filing and Payment                   implement the law authorizing private
Support                   Initiated    Compliance Modernization and         debt collection.2
                            2001       is an end-to-end strategy to
                                       resolve payment and filing
                                       compliance issues quickly and


2
    American Jobs Creation Act of 2004, Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                                              Page 26
                                           Annual Assessment of the
                                    Business Systems Modernization Program




 Project Name           Year             Project Description                  Project Status per the IRS
                      Initiated/
                        Year
                      Launched
Filing and Payment     Filing and    fairly. The Filing and Payment     • Release 1.1 was partially released in
Compliance/             Payment      Compliance strategy has 3            January 2006.
Collection Contract   Compliance     ultimate business goals to be
Support               Suspended      achieved in an environment that    • Release 1.1 was retired on
(continued)               2002       ensures taxpayer rights are          January 31, 2007.
                                     protected and customer
                      Collection                                        • Release 1.2 went live on
                                     satisfaction is improved:
                       Contract                                           January 22, 2007.
                                     1) resolve all balance-due cases
                       Support       above a minimum threshold,         • During the 29-week period from initial
                       Initiated     2) shorten the filing compliance     case placements on September 7, 2006,
                         2003        life cycle to resolve issues         to March 22, 2007, the Filing and
                       Filing and    before the next filing due date,     Payment Compliance strategy placed
                        Payment      and 3) shorten the payment           more than 33,000 cases with contractors,
                      Compliance     compliance life cycle to             which facilitated the collection of more
                           and       6 months for nonenforcement          than $17.8 million on cases formerly
                      Collection     cases.                               unassigned for active collection.
                        Contract                                        • During Fiscal Year 2007, gross revenue
                        Support                                           received as a result of the private debt
                      Combined                                            collection program is projected to be
                          2004                                            between $47,752,389 and $65,026,017.
                       Launched                                           With $3,018,000 commissions paid to
                         2006                                             the Private Collection Agencies, the net
                                                                          benefit to the Department of the
                                                                          Treasury is approximately $14,062,000.
                                                                        • There have been no identified instances
                                                                          of fraud or misuse of taxpayer
                                                                          information.
Modernized e-File      Initiated     Develops the modernized            • Release 1 launched in February 2004.
                        2002/        web-based platform for filing
                       Launched      IRS forms electronically.          • Release 2 launched in August 2004.
                         2004
                                     Provides electronic filing of      • Release 3.1 launched in January 2005.
                                     nearly 100 forms and schedules     • Release 3.2 launched in January 2006.
                                     for large corporations and small
                                     businesses (Form 1120 series),     • Release 3.2 completed in 2006 with
                                     tax-exempt organizations             more than 981,000 accepted submissions
                                     (Form 990 series) and                out of 1.2 million submitted returns.
                                     partnerships (Form 1065            • More than 15,000 Forms 1120 mandated
                                     series), and associated              returns (corporations with assets of
                                     extension forms                      greater than $50 million) received since
                                     (e.g., Form 7004).                   Release 3.2 launch (as of
                                                                          December 27, 2006).


                                                                                                          Page 27
                                           Annual Assessment of the
                                    Business Systems Modernization Program




  Project Name           Year             Project Description                Project Status per the IRS
                       Initiated/
                         Year
                       Launched
 Modernized e-File                                                    • More than 1,100 Forms 990 mandated
 (continued)                                                            returns (organizations with assets of
                                                                        greater than $100 million) received since
                                                                        Release 3.2 launch (as of
                                                                        December 27, 2006).
                                                                      • Release 4 was delivered on
                                                                        January 8, 2007, for the fourth season of
                                                                        electronic filing allowing select
                                                                        businesses and tax-exempt organizations
                                                                        to file their Federal and State forms in
                                                                        one transaction and States to retrieve
                                                                        their returns from the Modernized e-File
                                                                        system. Release 4 implements the
                                                                        ability to receive Forms 1065 and 1065B
                                                                        (Partnerships), meeting the mandate for
                                                                        taxpayers with 100 or more partners to
                                                                        file electronically. More than
                                                                        1,195,826 returns/extensions received
                                                                        since launch, a 193 percent increase from
                                                                        2006 (as of April 3, 2007).
                                                                      • More than 103,477 Forms 1120
                                                                        mandated returns (corporations with
                                                                        assets of greater than $10 million)
                                                                        received since launch (as of
                                                                        April 3, 2007).
                                                                      • Feedback from external stakeholders
                                                                        indicated satisfaction with the electronic
                                                                        filing experience.
                                                                      • The Modernized e-File project received
                                                                        the 2006 Commissioner’s Award for
                                                                        Exceptional Achievement in
                                                                        Modernization.
Source: IRS status report entitled “IRS Modernization Has Delivered Real Business Value” dated April 2007.




                                                                                                         Page 28
                                     Annual Assessment of the
                              Business Systems Modernization Program



                                                                                  Appendix V

                    Enterprise Life Cycle Overview

The Enterprise Life Cycle is the IRS’ standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
   •   Development of and conformance to an enterprise architecture.
   •   Improving business processes prior to automation.
   •   Use of prototyping and commercial software, where possible.
   •   Obtaining early benefit by implementing solutions in multiple releases.
   •   Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’ ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the layers, paths, phases, and milestones (shown as “MS” in
Figure 1) within the Enterprise Life Cycle Framework.




                                                                                          Page 29
                                                                       Annual Assessment of the
                                                                Business Systems Modernization Program



                                                     Figure 1: Enterprise Life Cycle Framework
  Governance Management




                                                                                            Acquisition Management
                Layer




                                                                                             Program Management

                                                                                      Implementation Project Management
    Layer




                                                           MS0               MS1                MS2             MS3              MS4A         MS4B                MS5


                          Large Custom Path
                          Small Custom Path
  Solution Life Cycle




                          Commercial-Off-the-
                          Shelf Path             Vision and
                                                 Strategy /                           Domain                                          System           System       Operations and
         Layer




                          Joint Application                         Project                         Preliminary Detailed Design
                                                 Enterprise                         Architecture                                    Development      Deployment      Maintenance
                          Development /                        Initiation Phase                    Design Phase     Phase
                                                Architecture                           Phase                                           Phase           Phase            Phase
                          Rapid Application
                                                   Phase
                          Development Path
                          Iterative Custom
                          Path
  Methodology Solution




                                                Various Work    Various Work       Various Work    Various Work    Various Work     Various Work   Various Work
               Layer




                                                Products and    Products and       Products and    Products and    Products and     Products and   Products and
                                                  Reviews         Reviews            Reviews         Reviews         Reviews          Reviews        Reviews
     Layer




                                                                      Developer's Business Change or System Change Methodology



                                                                                  Enterprise Integration, Test, and Evaluation
  Specialty Areas




                                                                                  Business Rules Harvesting and Management
                                                                                             Transition Management
      Layer




                                                                                             Enterprise Architecture
                                                                                    Capital Planning and Investment Control
                                                                                              Security and Privacy
                                                                                  Requirements Development and Management

Source: Graphical representation of the Enterprise Life Cycle Framework modified from the Enterprise Life Cycle
Guide.

Enterprise Life Cycle Layers
The Enterprise Life Cycle is a framework for organizing and using IRS directives, processes,
procedures, templates, and standards to accomplish business change. It is organized as a set of
six interacting layers.
           •               The Management Layer specifies how to plan and control business change programs,
                           projects, acquisitions, and solutions throughout the Enterprise Life Cycle.
           •               The Governance Layer specifies additional controls imposed from outside the project or
                           program.
           •               The Solution Life Cycle Layer specifies what should be done but not how to do it.
           •               The Solution Layer manages the solution as it is produced, including providing
                           standards for consistent solution specification and formal review of solution content.
                           This Layer provides control over work products that may be produced by multiple
                           internal and external developers using differing methodologies.

                                                                                                                                                                        Page 30
                                     Annual Assessment of the
                              Business Systems Modernization Program



   •   The Methodology Layer details how to do the work and specifies a unique set of work
       products to be produced. Specific methodologies are not a part of the Enterprise Life Cycle
       Framework.
   •   The Specialty Areas Layer provides additional guidance for areas of particular
       importance within the IRS. These areas include Enterprise Integration, Test, and
       Evaluation; Business Rules Harvesting and Management; Transition Management;
       Enterprise Architecture; Capital Planning and Investment Control; Security and Privacy;
       and Requirements Development and Management.

Enterprise Life Cycle Paths
A path specifies a unique “philosophy” or orientation for performing the work. Although the
Enterprise Life Cycle specifies a standard for the work required to produce and operate business
change solutions, there are multiple ways to approach and accomplish the required work. Paths
are like alternate roads, each of which crosses different terrain, but all of which lead to the same
destination. The Enterprise Life Cycle provides five distinct paths or approaches to developing
systems:
   •   The Large Custom Path is for large projects.
   •   The Small Custom Path is for small projects.
   •   The Commercial-Off-the-Shelf Path is a commercial software-based approach.
   •   The Joint Application Development/Rapid Application Development Path is a highly
       accelerated, prototyping-based approach for very small, standalone solutions or solution
       components.
   •   The Iterative Custom Path is a hybrid approach that combines elements of the other
       approaches.

Enterprise Life Cycle Phases and Milestones
A phase is a broad segment of work encompassing activities of similar scope, nature, and detail
and providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting
and ends with an executive management decision point (called a milestone) at which IRS
executives make “go/no-go” decisions for continuation of a project. Project funding decisions
are often associated with milestones.




                                                                                             Page 31
                                        Annual Assessment of the
                                 Business Systems Modernization Program



                  Figure 2: Enterprise Life Cycle Phases and Milestones
                                                    General Nature                       Concluding
              Phase                                     of Work                           Milestone
 Vision and Strategy/            High-level direction setting. This is the only phase
                                                                                             0
 Enterprise Architecture Phase   for enterprise planning projects.
 Project Initiation Phase        Startup of development projects.                            1
 Domain Architecture Phase       Specification of the operating concept, requirements,
                                                                                             2
                                 and structure of the solution.
 Preliminary Design Phase        Preliminary design of all solution components.              3
 Detailed Design Phase           Detailed design of solution components.                    4A
 System Development Phase        Coding, integration, testing, and certification of
                                                                                            4B
                                 solutions.
 System Deployment Phase         Expanding availability of the solution to all target
                                 users. This is usually the last phase for development       5
                                 projects.
 Operations and Maintenance      Ongoing management of operational systems.               System
 Phase                                                                                   Retirement
Source: The Enterprise Life Cycle Guide.




                                                                                                      Page 32
                                                          Annual Assessment of the
                                                   Business Systems Modernization Program



                                                                                                        Appendix VI

                               Modernization Program Funding Timeline

Chart 1 depicts cumulative funding received by the Modernization program for contractor costs.
                                       Chart 1: Modernization Program Funding Timeline
                                                   (dollars are cumulative)

                             $2,500                                                                             $2,300
                                                                                                       $2,134
                                                                                              $1,937
                             $2,000
     Dollars (in millions)




                                                                                           $1,592
                                                                                  $1,488
                             $1,500
                                                                               $968
                             $1,000
                                                                        $577
                                                                 $449
                              $500
                                                   $216   $249
                                       $35   $68
                                $0
                                       Apr Dec Mar Aug Sept Mar Oct Jan Sept May Feb Aug
                                      1999 1999 2000 2000 2000 2001 2001 2003 2003 2004 2006 2006
       Source: Modernization Expenditure Plans.




                                                                                                                   Page 33
                                                        Annual Assessment of the
                                                 Business Systems Modernization Program



Chart 2 depicts a timeline of the funding received annually by the Modernization program for
program management and development of business and infrastructure projects.
                                   Chart 2: Modernization Program Funding by Fiscal Year


                                  $450          $414          $391   $378   $388
                                  $400
                                  $350
          Dollars (in millions)




                                  $300                                                            $282*

                                  $250                                             $203
                                                                                          $197 $167
                                  $200
                                  $150                 $128

                                  $100
                                          $35
                                  $50
                                   $0
                                         1999 2000 2001 2002 2003 2004 2005 2006 2007 2008
                                                                 Fiscal Year
          Source: Modernization Expenditure Plans. * NOTE – The 2008 amount has not yet been
          appropriated; the figure is from the President’s Fiscal Year 2008 Budget Request. This
          amount includes an estimated $45 million to fund associated IRS labor costs.




                                                                                                          Page 34
                                                                    Annual Assessment of the
                                                             Business Systems Modernization Program



Chart 3 depicts the cumulative funding received by the Modernization program for noncontractor
costs of managing Modernization program activities. The IRS stated approximately 25 percent
of its noncontractor budget since Fiscal Year 2001 has been used to support non-Modernization
program activities in the IRS.
      Chart 3: Noncontractor Modernization Funding Timeline by Fiscal Year
                            (dollars are cumulative)

                                                      $300                                                                       $265.0

                                                      $250
                     Dollars (in millions)




                                                                                                                        $220.0

                                                      $200                                                     $170.2

                                                      $150                                            $119.0

                                                      $100                                 $82.4
                                                                                      $54.3
                                                      $50                     $27.6
                                                              $6.2   $11.8

                                                       $0
                                                             1999 2000 2001 2002 2003 2004 2005 2006 2007
                                                                                        Fiscal Year

                       Source: Actual expenditures for Fiscal Years 1999 through 2006
                       and the budget estimate for Fiscal Year 2007 provided by the IRS.

Chart 4 depicts a timeline of the funding received annually by the Modernization program for
noncontractor costs of managing Modernization program activities.
             Chart 4: Noncontractor Modernization Costs by Fiscal Year

                                                      $60
                                                                                                               $51.2    $49.8
                                                      $50                                                                        $45.0
                              Dollars (in millions)




                                                      $40                                             $36.6
                                                                                              $28.1
                                                      $30                             $26.7

                                                      $20                    $15.8

                                                      $10     $6.2   $5.6

                                                       $0
                                                             1999 2000 2001 2002 2003 2004 2005 2006 2007
                                                                                       Fiscal Year


                                   Source: Actual expenditures for Fiscal Years 1999 through 2006
                                   and the budget estimate for Fiscal Year 2007 provided by the IRS.




                                                                                                                                          Page 35
                                    Annual Assessment of the
                             Business Systems Modernization Program



Chart 5 depicts the funding received by the Modernization program for noncontractor and
external (contractor) costs of managing Modernization program activities.
     Chart 5: Internal and External Modernization Program Costs (in millions)

                                                          Internal Costs
                                                               $265



                            External Costs
                                $2,330




                    Source: Actual internal expenditures for Fiscal Years 1999
                    through 2006 and the internal budget estimate for Fiscal
                    Year 2007 provided by the IRS. The external costs were derived
                    from Modernization expenditure plans.




                                                                                      Page 36
                                           Annual Assessment of the
                                    Business Systems Modernization Program



                                                                                                 Appendix VII

                              Highest Priority Initiatives

The IRS created a number of Highest Priority Initiatives to develop, implement, and execute a
variety of activities within the MITS organization. Table 1 lists the Highest Priority Initiatives1
identified by the IRS and their status as of May 2007.
                               Table 1: IRS Highest Priority Initiatives
Highest Priority
   Initiatives       Status                                         Description
     (HPI)
    HPI-30          Closed     Enterprise Services: Build out Disaster Recovery Infrastructure for the Integrated
                               Financial System in the Enterprise Computing Center2 – Memphis.
     HPI-32         Closed     Enterprise Services: (Carryover) Integrate Change Management into Configuration
                               Management function.
     HPI-39         Closed     Applications Development: Build on existing Business Systems Modernization
                               recruitment strategy to develop a recruitment plan to address aging workforce and
                               shortages.
     HPI-40         Closed     Applications Development: Standup of productivity measuring system.
     HPI-41         Closed     Applications Development: Develop audit trails strategy and execution plan.
     HPI-42         Closed     Applications Development: Applications Development standup – 2nd Phase.
     HPI-43         Closed     Applications Development: Develop an electronic filing strategy going forward.
     HPI-44         Closed     Enterprise Services: Institutionalize the Information Technology Modernization
                               Vision and Strategy.
     HPI-45         Closed     Enterprise Services: Demand Management.
     HPI-46         Closed     Enterprise Services: Health Check Triage.
     HPI-47         Closed     Enterprise Services: Service-Based Architecture and Enterprise Application
                               Integration Broker Follow-on Integration (Carryover of HPI-28 and HPI-36)
     HPI-48         Closed     Enterprise Services: Update Enterprise Transition Plan and Release Architecture to
                               reflect results of the Information Technology Modernization Vision and Strategy.
     HPI-49         Closed     Enterprise Services: Develop a data strategy to guide projects that extract data from
                               the Master File.




1
  The Highest Priority Initiative numbers that are skipped in Table 1 are unrelated to the transition of program
management activities away from the PRIME contractor.
2
  See Appendix X for a glossary of terms.
                                                                                                             Page 37
                                           Annual Assessment of the
                                    Business Systems Modernization Program



 Highest Priority
    Initiatives      Status                                         Description
      (HPI)
     HPI-50          Closed      Enterprise Services: Strengthen IRS system integration capability through hiring of
                                 candidates for current senior technical vacancy.
      HPI-51           Closed Applications Development: Standup of code quality measures.
      HPI-52           Closed Enterprise Services: Clarify mission operating model for the Enterprise Services
                                 organization.
      HPI-53           Closed Enterprise Services: Tiered Program Management/Project Health Assessment
                                 Process.
      HPI-54           Closed Enterprise Services: Define governance structures and process across all projects.
      HPI-55           Closed Enterprise Services: Implement Best Practices for Requirements Development and
                                 Management.
      HPI-56           Closed Enterprise Services: Business Integration will establish and execute a plan to hire
                                 additional employees to fill its current vacancies. This will occur in two phases.
      HPI-57           Closed Applications Development: Establish strategic plans for each Application
                                 Development Domain based on Information Technology Modernization Vision and
                                 Strategy plans and steady state commitments (replacing current process of rolling
                                 over base from prior year).
      HPI-58           Closed Enterprise Services: Continue to strengthen IRS Enterprise Services organization
                                 technical capabilities through hiring of candidates for current Systems Integration
                                 vacancies.
      HPI-59           Closed Enterprise Services: Data Strategy Phase 2.
      HPI-60           Closed Enterprise Services: Align IRS Service Oriented Architecture with Information
                                 Technology Modernization Vision and Strategy.
      HPI-61           Closed Enterprise Services: Develop Enterprise Capacity Planning and Performance
                                 Engineering Plan within the Enterprise Services organization.
      HPI-62           Closed Applications Development: Develop a strategy to manage software transmittals
                                 scheduling in the Applications Development organization to reduce the number of
                                 transmittals.
      HPI-63           Closed Applications Development: Institutionalize a tiered Program Office Model for the
                                 Applications Development organization to include all Current Production
                                 Environment projects except Major Investments.
      HPI-64           Closed Applications Development: Further refine the new Applications Development
                                 organization.
Source: Identification of Applications Development organization and Enterprise Services organization Highest
Priority Initiatives provided by IRS management from IRS status reports as of May 2007.




                                                                                                            Page 38
                                          Annual Assessment of the
                                   Business Systems Modernization Program



                                                                                                Appendix VIII

   Open Recommendations Related to Modernization
           Program Material Weaknesses

Table 1 lists TIGTA audit recommendations with current IRS open corrective actions related to
the Modernization program material weakness.
                       Table 1: TIGTA Recommendations Related to the
                          Modernization Program Material Weakness
The Modernization, Information Technology and Security Services Organization Needs to Take Further Action
to Complete Its Human Capital Strategy (Reference Number 2003-20-209, dated September 2003)
                      To ensure the MITS organization has sufficient data to determine human capital demands,
                      the Chief Information Officer needs to support the Director, Management Services, to work
                      with offices throughout the MITS organization to identify the human capital demand. The
    2003-20-209
                      demand includes information to adequately plan the number, location, and assignment
     Finding 1,
                      schedule of human capital assets for existing information systems (from owners in the
Recommendation 1
                      Information Technology Services organization) and future MITS organization operations
                      (from owners in the Business Systems Modernization program). Due Date:
                      December 31, 2010.
                      To ensure the MITS organization has adequate staffing to meet its needs, the Chief
                      Information Officer should charge the Director, Management Services, to develop detailed
                      hiring and retention plans. These plans should consider staff position “return on
                      investment” as a consideration for determining the type of talent to recruit or retain and
                      should be incorporated into the MITS organization’s human capital strategy with relevant
    2003-20-209
                      links to its budget.
     Finding 2,
                      Recruiting: Prioritize the most critical skill needs and position locations with project
Recommendation 1
                      development, deployment, implementation, and operation schedules. Proceed with hiring
                      specific skills based on decisions for recruiting the subject position with either fully trained
                      or trainable talent or through an internship position.
                      Retention: Identify and compile retention incentives into a plan to maintain the MITS
                      organization talent pool. Due Date: December 31, 2010.
Risks Are Mounting as the Integrated Financial System Project Team Strives to Meet an Aggressive
Implementation Date (Reference Number 2004-20-001, dated October 2003)
    2004-20-001       To ensure a high-quality system is delivered, the Chief Information Officer should ensure
     Finding 2,       the disaster recovery environment is completely built out and tested as soon as possible.
Recommendation 1 Due Date: December 31, 2010.
The Office of Release Management Can Improve Controls for Modernization Program Coordination
(Reference Number 2004-20-157, dated September 2004)
                      To help provide clear direction in the development of the Modernization program, the Chief
    2004-20-157
                      Information Officer should determine whether and how the Business Systems
     Finding 1,
                      Modernization Office will fulfill the Modernization program integrator role and document
Recommendation 1
                      the related responsibilities and processes. Due Date: December 31, 2010.

                                                                                                             Page 39
                                          Annual Assessment of the
                                   Business Systems Modernization Program



The Business Systems Modernization Program Has Achieved Mixed Success in Addressing Weaknesses
Identified in Internal and External Studies (Reference Number 2006-20-003, dated November 2005)
                       To ensure study weaknesses and previous recommendations concerning
   2006-20-003         change/configuration management are addressed, the Associate Chief Information Officer,
    Finding 1,         Enterprise Services, should create an overall plan that includes defined tasks, responsible
Recommendation 2 individuals, and estimated completion dates for implementing the standardized configuration
                       management toolset. Due Date: December 31, 2010.
The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns and Refunds Not
Being Identified (Reference Number 2006-20-108, dated August 9, 2006)
                       The Chief Information Officer should defer additional work on the Web Electronic Fraud
                       Detection System until the IRS decides who will perform the Electronic Fraud Detection
   2006-20-108
                       System work. If some or all of the work will transfer to other business units, the Chief
    Finding 3,
                       Information Officer should ensure their requirements are identified before initiating a
Recommendation 4
                       contract for further development of the Web Electronic Fraud Detection System. The
                       contract should be opened to competition. Due Date: December 31, 2010.
The Modernization and Information Technology Services Organization’s Revised Post Implementation Review
Procedure Can Be Improved (Reference Number 2007-20-001, dated October 26, 2006)
                       The Chief Information Officer should direct the Program Performance Management office
                       to develop a schedule to perform Post Implementation Reviews for releases deployed and to
                       identify and obtain staffing resources commitments needed from the Program Performance
   2007-20-001         Management office, the Office of Program Evaluation and Risk Analysis, and appropriate
    Finding 1,         business unit representatives to effectively execute the Post Implementation Reviews. The
Recommendation 1 Chief Information Officer should also direct the Program Performance Management office
                       to eliminate the requirement to perform Post Reviews of milestone completion activities
                       after milestone exits, with the option of identifying any lessons learned for further project
                       progress through the Milestone Exit Reviews. Due Date: March 1, 2010.
                       The Chief Information Officer should direct the Program Performance Management office
   2007-20-001
                       to implement a procedure to control Post Implementation Review results that ensures
    Finding 1,
                       appropriate executives and decision makers have access to these documents.
Recommendation 2
                       Due Date: March 1, 2010.
                       The Chief Information Officer should direct the Program Performance Management office
                       to identify skills and abilities desired for Post Implementation Review team members and
   2007-20-001
                       ensure team assignments consider these qualifications. The Program Performance
    Finding 1,
                       Management office should develop a training guide for Post Implementation Review team
Recommendation 3
                       members to provide them with an understanding of the purpose, objectives, and processes of
                       the Post Implementation Review. Due Date: March 1, 2010.
The Internal Revenue Service Is Successfully Taking Steps to Transition Modernization Activities From the
PRIME Contractor; However, Difficult Challenges Remain (Reference Number 2007-20-003, dated
October 24, 2006)
                       To ensure the IRS is successful in performing modernization activities, the Chief
   2007-20-003         Information Officer should ensure performance measures are developed for each
    Finding 1,         transitioned modernization activity that can be measured. When traditional performance
Recommendation 1 measures are difficult to develop, the IRS can obtain feedback from modernization
                       stakeholders and users to measure customer satisfaction. Due Date: November 1, 2007.




                                                                                                           Page 40
                                         Annual Assessment of the
                                  Business Systems Modernization Program



The Modernized E-File Project Can Improve the Management of Expected Capabilities and Associated Costs
(Reference Number 2007-20-005, dated December 27, 2006)
                     The Chief Information Officer should ensure the IRS Procurement office develops
                     additional guidance to work with project development teams to timely monitor contractor
   2007-20-005
                     progress and ensure work is properly authorized. Imminent contract expiration dates should
    Finding 3,
                     also be timely identified so contract modifications and extensions can be approved before
Recommendation 2
                     contractors perform work, thereby helping prevent work stoppages or potential legal actions.
                     Due Date: September 1, 2007.
Business Cases for Information Technology Projects Remain Inaccurate (Reference Number 2007-20-024,
dated January 25, 2007)
                     To ensure project costs are reported accurately, the Chief Information Officer should
                     provide increased oversight and training to ensure Project Managers include complete and
   2007-20-024
                     realistic cost estimates for their projects and more closely review Project Managers’
    Finding 1,
                     business cases to ensure realistic cost estimates are provided and costs are substantiated.
Recommendation 1
                     Particular attention should be paid to the allocation of management, labor, and security
                     costs. Due Date: June 1, 2007.
                     To ensure project costs are reported accurately, the Chief Information Officer should
   2007-20-024
                     coordinate with the Department of the Treasury Capital Planning and Investment Control
    Finding 1,
                     office and follow Office of Management and Budget guidance requiring allocation of
Recommendation 2
                     management and labor costs to specific projects. Due Date: June 1, 2007.
                     To ensure earned value management data are accurately computed and disclosed in IRS
                     business cases, the Chief Information Officer should provide additional oversight of Project
                     Managers to ensure sufficient care is taken in developing and reporting earned value
   2007-20-024
                     management data. Each Project Manager should disclose all significant facts related to the
    Finding 2,
                     earned value management data, including the significant percentage of costs omitted from
Recommendation 1
                     earned value calculations and the number of times the project has been rebaselined. These
                     disclosures would help explain how the investment is able to achieve its high performance
                     standards. Due Date: June 1, 2007.
                     To ensure earned value management data are accurately computed and disclosed in IRS
   2007-20-024       business cases, the Chief Information Officer should ensure reviews are conducted to
    Finding 2,       determine whether contractors’ earned value management systems comply with industry
Recommendation 2 standards. Noncompliance and failure to conduct the reviews should be disclosed.
                     Due Date: October 1, 2007.
                     The Chief Information Officer should ensure the Director, Capital Planning and Investment
   2007-20-024
                     Control, reviews the IRS Federal Information Security Management Act1 Master Inventory
    Finding 4,
                     of major systems annually to ensure business cases are prepared for required projects.
Recommendation 1
                     Due Date: June 1, 2007.
Telecommunication Projects Need Improved Contract Documentation and Management Oversight (Reference
Number 2007-20-030, dated March 5, 2007)
   2007-20-030       The Chief Information Officer should ensure project documentation supports consideration
    Finding 1,       of the Department of the Treasury contracts during the procurement process when
Recommendation 1 comparing alternative solutions for telecommunication services. Due Date: May 1, 2007.




1
  The Federal Information Security Management Act of 2002 (44 U.S.C. § 3541, et seq.) is a United States Federal
law enacted in 2002 as Title III of the E-Government Act of 2002 (Pub. L. 107-347, 116 Stat. 2899).
                                                                                                        Page 41
                                         Annual Assessment of the
                                  Business Systems Modernization Program



                     The Chief Information Officer should analyze all (steady state and development,
                     modernization, and enhancement stage) information technology investments included in the
   2007-20-030
                     Telecommunications Infrastructure Exhibit 300 to identify projects under development that
    Finding 2,
                     should be classified as major information technology investments requiring increased
Recommendation 1
                     executive oversight and the preparation of internal Exhibits 300.
                     Due Date: September 1, 2007.
Complete Actions Were Not Taken to Validate the Best Software Solution Was Chosen for the Private Debt
Collection Program (Reference Number 2007-20-065, dated April 10, 2007)
                     The Chief Information Officer should work with officials from the Department of the
   2007-20-065
                     Treasury and the Office of Management and Budget to determine the level of effort required
    Finding 1,
                     to develop estimates and supporting documentation for a new Alternatives Analysis for
Recommendation 1
                     submission to the Department of the Treasury in June 2007. Due Date: August 1, 2007.
Continued Improvements Are Needed for the Development and Operations of the New Enterprise Services
Organization (Reference Number 2007-20-073, dated April 27, 2007)
                     To ensure the continued orderly evolution of the Enterprise Services organization, the
   2007-20-073       Associate Chief Information Officer, Enterprise Services, should complete the work
    Finding 1,       necessary to appropriately identify, document, and validate missions and goals at all levels,
Recommendation 1 functions, and offices of the new Enterprise Services organization.
                     Due Date: December 1, 2007.
                     To ensure the continued orderly evolution of the Enterprise Services organization, the
   2007-20-073
                     Associate Chief Information Officer, Enterprise Services, should develop and document
    Finding 1,
                     short-term and long-term transformational plans tied to missions, goals, and strategic plans
Recommendation 2
                     of the MITS organization and the IRS. Due Date: February 1, 2008.
                     To ensure resource staffing assignments are commensurate with the work being conducted,
                     the Associate Chief Information Officer, Enterprise Services, should track individual
                     assignments and work products, when applicable; revise Single Entry Time Reporting
   2007-20-073
                     system codes to provide a more accurate and detailed accounting of staffing and activities;
    Finding 1,
                     and reevaluate staffing needs based upon current and future workloads to help prioritize and
Recommendation 3
                     allocate resources. Once workload and resource plans are developed, this information
                     should be used in developing business and action plans for each Enterprise Services
                     organization office. Due Date: April 1, 2008.
                     To ensure performance is defined and measured, the Associate Chief Information Officer,
   2007-20-073       Enterprise Services, should complete the current performance measures pilot, identify
    Finding 1,       performance measures for offices not included in the performance measures pilot, and
Recommendation 4 identify key performance measures for the entire Enterprise Services organization, based on
                     goals and missions as well as short-term and long-term plans. Due Date: April 1, 2008.
The Modernization and Information Technology Services Organization Can Improve Its Budget Formulation,
Execution, and Review Processes (Reference Number 2007-20-064, dated May 9, 2007)
                     The Chief Information Officer should implement a process to develop the entire MITS
                     organization budget in line with the Information Technology Modernization Vision and
   2007-20-064       Strategy’s rolling 5-year prioritized plan. The budget process should consider
    Finding 1,       organizational goals for each of the MITS organization components and include costs for
Recommendation 1 operations and maintenance of existing computer systems, telecommunication systems, and
                     other programs such as end-user support and help desk activities.
                     Due Date: October 1, 2008.




                                                                                                         Page 42
                                          Annual Assessment of the
                                   Business Systems Modernization Program



                       The Chief Information Officer should ensure (1) the draft Budget Cycle procedures are
                       approved and implemented timely and (2) the Financial Management Services organization
     2007-20-064
                       supplements the budget formulation processes with detailed procedures documenting
      Finding 2,
                       Financial Management Services organization staff duties and responsibilities for soliciting,
  Recommendation 1
                       receiving, reviewing, and reporting MITS organization budget estimates.
                       Due date: January 1, 2008.
                       The Chief Information Officer should ensure (1) the draft Budget Cycle document is
     2007-20-064       approved timely and the spending review procedures are implemented and (2) the Financial
      Finding 3,       Management Services organization supplements the spending review reporting with
  Recommendation 1 additional procedures that identify Fund Center Changes necessary to realign funds in
                       response to spending review results. Due date: January 1, 2008.
Source: The Joint Audit Management Enterprise System (as of May 2007) and TIGTA reports issued as of May 2007.




                                                                                                         Page 43
                                            Annual Assessment of the
                                     Business Systems Modernization Program



                                                                                                       Appendix IX

           Recent Treasury Inspector General for
             Tax Administration Reports on the
     Internal Revenue Service’s Modernization Program

Table 1 lists TIGTA reports related to the IRS Modernization program issued from April 2006
through May 2007 and the associated findings that included recommendations.
                            Table 1: Recent TIGTA Reports and Findings
           Report Title                                                    Findings
Enhancements to Transition          Transition
Management Guidance Will Enable     management1
Effective and Efficient             performance
Modernization Project               measures need
Implementation (Reference           further
Number 2006-20-054, dated           development.
April 2006)

The Business Systems                The Business          Task order
Modernization Program Is            Systems               monitoring can be
Receiving Value From Contract       Modernization         strengthened.
Work; However, Monitoring Can       program received
Be Strengthened (Reference          partial value for
Number 2006-20-079, dated           two services.
May 2006)

Focusing Management Efforts on      The PRIME             Successful              Controls to          Defining CADE
Long-Term Project Needs Will        contractor’s          development of the      manage CADE          project release
Help Development of the Customer    inadequate testing    CADE is dependent       requirements do      requirements will
Account Data Engine Project         resulted in reduced   upon its ability to     not allow ready      help enable the use
(Reference Number 2006-20-076,      capabilities for      serve as an efficient   access for project   of fixed-price
dated June 2006)                    CADE                  and effective           team use.            contracts.
                                    Release 1.3.          foundation for
                                                          modernized systems
                                                          and applications.




1
    See Appendix X for a glossary of terms.
                                                                                                                 Page 44
                                             Annual Assessment of the
                                      Business Systems Modernization Program



         Report Title                                                         Findings
The Electronic Fraud Detection        The Electronic         The Electronic Fraud     The contractor’s
System Redesign Failure Resulted      Fraud Detection        Detection System         performance was
in Fraudulent Returns and Refunds     System did not         risks were not           not effectively
Not Being Identified (Reference       have adequate          effectively managed.     monitored, and
Number 2006-20-108, dated             executive                                       performance-based
August 9, 2006)                       oversight.                                      contracts were not
                                                                                      used.

The Modernization and                 Enhancements to
Information Technology Services       post
Organization’s Revised Post           implementation
Implementation Review Procedure       review procedures
Can Be Improved (Reference            can make them
Number 2007-20-001, dated             more effective and
October 26, 2006)                     efficient.

Stronger Management Oversight Is      The process to
Required to Ensure Valuable           effectively and
Systems Modernization Expertise Is    timely monitor the
Received From the Federally           contractor’s
Funded Research and Development       performance
Center Contractor (Reference          should be
Number 2007-20-002, dated             enhanced.
October 20, 2006)

The Internal Revenue Service Is       The IRS should
Successfully Taking Steps to          measure how
Transition Modernization Activities   effectively
From the Prime Contractor;            transitioned
However, Difficult Challenges         modernization
Remain (Reference                     activities are being
Number 2007-20-003, dated             performed.
October 24, 2006)

The Modernized E-File Project         The Modernized         Extended                 Negotiations and
Can Improve the Management of         e-File project has     development,             approvals of
Expected Capabilities and             not completely         deferral, and            Modernized e-File
Associated Costs (Reference           defined its release    additions to             project contracting
Number 2007-20-005, dated             requirements and       requirements have        actions were not
December 27, 2006)                    release schedule to    made Modernized          always
                                      allow use of           e-File project funding   accomplished
                                      fixed-price            and contract             timely.
                                      contracts.             accounting difficult.

Business Cases for Information        Project costs          Progress on              The Department of     Major applications
Technology Projects Remain            remain inaccurate.     development projects     the Treasury’s        were omitted from
Inaccurate (Reference Number                                 continues to be          programming of        the budget
2007-20-024, dated                                           measured                 the ProSight          submission.
January 25, 2007)                                            inaccurately.            system continues
                                                                                      to contribute to
                                                                                      inaccuracies in
                                                                                      business cases.



                                                                                                                      Page 45
                                            Annual Assessment of the
                                     Business Systems Modernization Program



         Report Title                                                        Findings
Telecommunication Projects Need      Project                 Telecommunication
Improved Contract Documentation      documentation did       projects were
and Management Oversight             not show that the       considered
(Reference Number 2007-20-030,       Treasury                infrastructure
dated March 5, 2007)                 Communications          projects and not
                                     System contract         classified as major
                                     was considered as       information
                                     an acquisition          technology
                                     vehicle for             investments.
                                     development of the
                                     Enterprise Remote
                                     Access Project.
Oversight of the Electronic Fraud    Contracting
Detection System Restoration         activities have
Activities Has Improved, but Risks   improved, but a
Remain (Reference                    cost
Number 2007-20-052, dated            reimbursement
March 29, 2007)                      issue remains.

Complete Actions Were Not Taken      Efforts to
to Validate the Best Software        revalidate the
Solution Was Chosen for the          alternatives
Private Debt Collection Program      analysis were not
(Reference Number 2007-20-065,       sufficient.
dated April 10, 2007)

Continued Improvements Are           The Enterprise
Needed for the Development and       Services
Operations of the New Enterprise     organization needs
Services Organization (Reference     to further define its
Number 2007-20-073, dated            missions and
April 27, 2007)                      goals, validate
                                     staffing
                                     assignments, and
                                     create performance
                                     measures.
The Modernization and                The MITS                The MITS                Procedures for
Information Technology Services      organization            organization does not   transferring funds
Organization Can Improve Its         budget estimates        have formal             were not followed,
Budget Formulation, Execution,       are not based           procedures for the      and guidance
and Review Processes (Reference      entirely on             Budget Formulation      for performing
Number 2007-20-064, dated            program objectives      process.                Spending Reviews
May 9, 2007)                         and operations                                  is not complete.
                                     planned for the
                                     upcoming budget
                                     cycle.
Source: TIGTA reports issued from April 2006 through May 2007.




                                                                                                          Page 46
                                   Annual Assessment of the
                            Business Systems Modernization Program



                                                                               Appendix X

                             Glossary of Terms

            Term                                          Definition
Account Management Services The Account Management Services project will modernize
                            the capability to collect, view, retrieve, and manage taxpayer
                            information.
Best Practice                   A best practice is a technique or methodology that, through
                                experience and research, has proven to reliably lead to a
                                desired result.
Business Rule                  A business rule is a statement that defines or constrains some
                               aspect of the business.
Business Rules Harvesting       Business rules harvesting is a general term used to
                                broadly describe the entire set of activities involved in
                                gathering, formalizing, analyzing, and validating business
                                rules for a particular scope.
Campus                          The campuses are the data processing arm of the IRS. They
                                process paper and electronic submissions, correct errors, and
                                forward data to the Computing Centers for analysis and
                                posting to taxpayer accounts.
Customer Account Data           The CADE is the foundation for managing taxpayer accounts
Engine (CADE)                   in the IRS modernization plan. It will consist of databases
                                and related applications that will replace the IRS’ existing
                                Master File processing systems and will include applications
                                for daily posting, settlement, maintenance, refund processing,
                                and issue detection for taxpayer tax account and return data.
Deferral                        A deferral is an approved request for verification of a
                                requirement or set of requirements to be moved to another
                                phase of testing.
Earned Value Management         Earned value management involves measuring actual cost and
                                work accomplished against the budgeted cost and planned
                                work scheduled. Variances are analyzed for decision making.




                                                                                       Page 47
                                       Annual Assessment of the
                                Business Systems Modernization Program




             Term                                            Definition
Electronic Fraud Detection         The Electronic Fraud Detection System is the primary
System                             information system used to support the IRS Criminal
                                   Investigation Division’s Questionable Refund Program,
                                   which is a nationwide program established in January 1997 to
                                   detect and stop fraudulent and fictitious claims for refunds on
                                   income tax returns.

Enterprise Application             The Enterprise Application Integration Broker is a
Integration Broker                 commercial off-the-shelf solution that will be used to enable
                                   the communication and data transformations between
                                   components of the Account Management Services
                                   organization, the current processing environment, and the
                                   CADE.
Enterprise Computing Center        An Enterprise Computing Center supports tax processing and
                                   information management through a data processing and
                                   telecommunications infrastructure.
Enterprise Integration, Test,      Enterprise Integration, Test, and Evaluation includes
and Evaluation                     processes for integrating multiple components of a solution
                                   and conducting various types and levels of testing on the
                                   solution.
Enterprise Life Cycle              The Enterprise Life Cycle is a structured business systems
                                   development method that requires the preparation of specific
                                   work products during different phases of the development
                                   process.
Executive Steering Committee       An Executive Steering Committee oversees investments,
                                   including validating major investment business requirements
                                   and ensuring that enabling technologies are defined,
                                   developed, and implemented.
Filing and Payment                 The Filing and Payment Compliance project will provide
Compliance                         support for detecting, scoring, and working nonfiler cases
                                   (filing compliance) and delinquency cases (payment
                                   compliance).
Filing Season                      The filing season is the period from January through
                                   mid-April when most individual income tax returns are filed.




                                                                                           Page 48
                                  Annual Assessment of the
                           Business Systems Modernization Program




              Term                                       Definition
Firm Fixed-Price Task Order   A firm fixed-price task order sets a price that is not subject to
                              any adjustment because of cost overruns incurred by the
                              contractor.
Forms 1040, 1040EZ, and       Forms 1040, 1040EZ, and 1040A are the series of IRS forms
1040A                         for individual income tax returns.
Individual Master File        The Individual Master File is the IRS database that maintains
                              transactions or records of individual tax accounts.
Information Technology        The Information Technology Modernization Vision and
Modernization Vision and      Strategy establishes a 5-year plan that drives investment
Strategy                      decisions; addresses the priorities around modernizing
                              front-line tax administration and supporting technical
                              capabilities; and leverages existing systems (where possible)
                              and new development (where necessary) to optimize capacity,
                              manage program costs, and deliver business value on a more
                              incremental and frequent basis.
Infrastructure                Infrastructure is the fundamental structure of a system or
                              organization. The basic, fundamental architecture of any
                              system (electronic, mechanical, social, political, etc.)
                              determines how it functions and how flexible it is to meet
                              future requirements.
Logical Design                Logical design describes the functions required of a system;
                              that is, what is to be done, not how it will be done. Logical
                              design is concerned with the processes to be performed.
Master File                   The Master File is the IRS database that stores various types
                              of taxpayer account information. This database includes
                              individual, business, and employee plans and exempt
                              organizations data.
Milestone                     Milestones provide for “go/no-go” decision points in a project
                              and are sometimes associated with funding approval to
                              proceed.




                                                                                        Page 49
                               Annual Assessment of the
                        Business Systems Modernization Program




           Term                                       Definition
Modernized e-File          The Modernized e-File project develops the modernized,
                           web-based platform for filing approximately 330 IRS forms
                           electronically, beginning with the U.S. Corporation Income
                           Tax Return (Form 1120), U.S. Income Tax Return for an
                           S Corporation (Form 1120S), and Return of Organization
                           Exempt From Income Tax (Form 990). The project serves to
                           streamline filing processes and reduce the costs associated
                           with a paper-based process.
PRIME Contractor           The PRIME contractor is the Computer Sciences Corporation,
                           which heads an alliance of leading technology companies
                           brought together to assist with the IRS’ efforts to modernize
                           its computer systems and related information technology.
Release                    A release is a specific edition of software.
Return on Investment       Return on investment is the net profit or loss in an accounting
                           period divided by the capital investment used during the
                           period, usually expressed as an annual percentage return.
Task Order                 A task order is an order for services placed against an
                           established contract.
Tax Gap                    The tax gap is the difference between the annual Federal tax
                           obligation and the amount of tax that taxpayers pay
                           voluntarily and timely.
Transition Management      Transition management helps ensure personnel and
                           organizations are prepared to receive, use, operate, and
                           maintain the business processes and technology provided by
                           business change solutions.
Vision and Strategy        The Vision and Strategy phase translates the fundamental
                           business strategy into a transformation strategy for business
                           processes, information technology, and organizational change.




                                                                                     Page 50
                 Annual Assessment of the
          Business Systems Modernization Program



                                              Appendix XI

Management’s Response to the Draft Report




                                                   Page 51
       Annual Assessment of the
Business Systems Modernization Program




                                         Page 52
       Annual Assessment of the
Business Systems Modernization Program




                                         Page 53
